<html>
<title> - CONFIRMATION HEARING ON THE NOMINATION OF GRACE C. BECKER TO BE ASSISTANT ATTORNEY GENERAL FOR THE CIVIL RIGHTS DIVISION</title>
<body><pre>[Senate Hearing 110-433]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-433
 
    CONFIRMATION HEARING ON THE NOMINATION OF GRACE C. BECKER TO BE 
        ASSISTANT ATTORNEY GENERAL FOR THE CIVIL RIGHTS DIVISION

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2008

                               __________

                          Serial No. J-110-79

                               __________

         Printed for the use of the Committee on the Judiciary


                     U.S. GOVERNMENT PRINTING OFFICE
42-266 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
           Stephanie A. Middleton, Republican Staff Director
              Nicholas A. Rossi, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Uath......     3
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................   196
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................     2

                        STATEMENT OF THE NOMINEE

Becker, Grace C., of New York, Nominee to be Assistant Attorney 
  General for the Civil Rights Division, Department of Justice...     5
    Questionnaire................................................     6

                         QUESTIONS AND ANSWERS

Responses of Grace C. Becker to questions submitted by Senators 
  Durbin, Feingold, Kennedy, Leahy, Schumer, Specter and 
  Whitehouse.....................................................    71

                       SUBMISSION FOR THE RECORD

Warner, Hon. John, a U.S. Senator from the State of Virginia, 
  prepared statement.............................................   199


 NOMINATION OF GRACE C. BECKER, OF NEW YORK, TO BE ASSISTANT ATTORNEY 
      GENERAL FOR THE CIVIL RIGHTS DIVISION, DEPARTMENT OF JUSTICE

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 2:42 p.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Edward M. 
Kennedy, presiding.
    Present: Senators Feingold, Schumer, Cardin, Whitehouse, 
Specter, and Hatch. Also present: Grace C. Becker.

  OPENING STATEMENT OF HON. EDWARD M. KENNEDY, A U.S. SENATOR 
                FROM THE STATE OF MASSACHUSETTS

    Senator Kennedy. Good afternoon. The Committee will come to 
order. Thank you for your patience here this afternoon.
    Ms. Becker, good afternoon, and welcome to the Committee. 
You've been nominated to head the Civil Rights Division. The 
Division is one of the most importance agencies in the Federal 
Government. It serves as the government's public and private 
voice on civil rights. Its historic mission has been to protect 
the civil rights of all Americans, especially those who are the 
most vulnerable, and help our Nation live up to our ideals of 
opportunity and justice for all.
    Fifty years ago, the Division was created to provide more 
rigorous protection of civil rights. Since then, Justice 
Department lawyers have been in the forefront of civil rights 
struggles. The Division was at the forefront of battles to 
desegregate schools and open the doors of opportunity to all 
children; it led the charge to protect voting rights and fair 
housing, and to break down the glass ceilings that unfairly 
limit opportunities in workplaces for women, minorities, and 
persons with disabilities.
    Today's civil rights challenges are difference from those 
of the past. New forms of discrimination replace the ``Whites 
Only'' signs of the past. We know that civil rights are still 
the unfinished business of America and if we are not vigilant 
we will lose ground, so there is a need for a strong Civil 
Rights Division to continue the progress that we have been 
making.
    Unfortunately, in this administration the Division has 
failed to live up to its historic role. The Division that 
helped bring Jim Crow to his knees has now backed away from 
fully enforcing civil rights. Press reports and congressional 
oversight hearings on the Division have shown that in recent 
years politics has often dictated outcomes and civil rights 
enforcement suffered.
    Equally disturbing, the Division's political leaders 
supplied political tests to career professionals and let 
partisan considerations affect personal decisions ranging from 
hiring to case assignments and evaluation. Much of this conduct 
is still under investigation by the Inspector General in the 
Office of Professional Responsibility.
    The next Attorney General for Civil Rights will need to 
restore the Division's tarnished image and reassure the 
American people that their civil rights are being fully and 
fairly protected. The public must be confident that politics no 
longer trumps law enforcement and that the Division has the 
strong leadership needed to correct the recent problems. I look 
forward to today's hearing and to your testimony on these 
important issues.
    Ms. Becker, as the Acting Assistant Attorney General for 
Civil Rights, you previously served from 2006-2007 as the 
Deputy Attorney General in the Division of an Associate Deputy 
General Counsel for the Department of Defense. She is an 
alumnae of this Committee and served as counsel to Senator 
Hatch from 2003 to 2005, and we welcome Senator Hatch here this 
afternoon. She has also been an Assistant General Counsel of 
the U.S. Sentencing Commission and an attorney in the Criminal 
Division of the Department of Justice.
    We will hear from Senator Specter, and then we will welcome 
any comments from our friend and colleague and Committee 
member, Senator Hatch, before we hear from the witness.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman. I join the 
Chairman in welcoming you here, Ms. Grace Chung Becker. You 
come to this nomination with outstanding academic and 
professional background. I note you are a magna cum laude 
graduate of the University of Pennsylvania, a very fine school. 
I have a little knowledge as to what it takes to be magna cum 
laude there. Magna also from Georgetown University Law Center. 
You clerked for two very distinguished Federal judges. You had 
extensive experience in the Department of Justice, and as 
previously noted, working in the Civil Rights Division as 
Deputy Assistant Attorney General and Acting Assistant Attorney 
General.
    As a member of a minority yourself, I think you have some 
special insights into the issues and into the problems. There 
is no doubt about the tremendous importance of the Civil Rights 
Division. As that Division has moved from one form of 
discrimination to another, it requires a great deal of 
vigilance and is a very, very important department.
    I would ask unanimous consent that a statement by Senator 
John Warner be included in the record, and look forward to your 
testimony.
    Senator Kennedy. It will be so included, and a statement of 
Senator Leahy.
    [The prepared statements of Senator Warner and Senator 
Leahy appear as submissions for the record.]
    Senator Kennedy. Ms. Becker, are you sure you want Senator 
Hatch to introduce you?
    [Laughter.]
    Ms. Becker. I proudly sit next to Senator Hatch.
    Senator Kennedy. We welcome friend and colleague Senator 
Hatch. We are delighted to hear from you.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Thank you, Mr. Chairman.
    Grace, I have to say that you have two of the finest 
advocates of civil rights in the history of this country who 
are chairing and Ranking Member on this Committee today. I have 
such tremendous respect for them.
    But first of all, let me thank Senator Leahy, the Judiciary 
Committee Chairman, for scheduling this hearing, as well as 
you, Senator Kennedy, for taking time to chair the hearing, and 
my dear friend as well, Senator Specter.
    I am proud to introduce to the Committee Grace Chung 
Becker, an outstanding nominee to be Assistant Attorney General 
for Civil Rights. I will take just a few minutes to introduce 
her, both professionally and personally.
    Grace is currently the Acting Assistant Attorney General, 
as has been said, for Civil Rights and has helped to lead the 
Civil Rights Division since 2006, first as a Deputy Assistant 
Attorney General. She received her B.A. from the University of 
Pennsylvania and her B.S. from the Wharton School of Finance, 
each of them magna cum laude. She received her J.D. from 
Georgetown, where she was elected to the Order of the Coif, 
which is the highest honor you can get in law school. By the 
way, she also received that degree magna cum laude.
    I think I see a pattern here. With the exception of 1 year 
as an associate with the well-known law firm of Williams & 
Connelly, Grace has spent her career in public service in all 
three branches of government. She clerked for U.S. District 
Judge Thomas Penfield Jackson and U.S. Circuit Judge James 
Buckley, both here in the District of Columbia. Grace has 
served in the Department of Justice as a trial attorney in the 
Criminal Division, as Special Assistant U.S. Attorney, and as 
Deputy Assistant Attorney General. Her executive branch tenure 
also includes serving as Associate General Counsel at the 
Department of Defense. Before returning to the Justice 
Department, Grace served for 6 years as Assistant General 
Counsel for the U.S. Sentencing Commission, as has been 
mentioned.
    It was during that period that she was detailed here to the 
Senate Judiciary Committee, where she served as counsel when I 
chaired the Committee during the 108th Congress. I believe that 
15 current members of the Committee were here at that time and 
will no doubt remember Grace's excellent work and dedication.
    So, Mr. Chairman, Grace has served in all three branches of 
the Federal Government and already has extensive experience 
with the Department of Justice, including service in the very 
position to which she has been nominated.
    Turning from the professional to the personal, Grace was 
born in New York City, the first person in her family to be 
born in the United States. Her parents, both naturalized 
American citizens, and Grace's three siblings are all 
entrepreneurs in the New York/New Jersey area. I understand 
that her extended family is here to support her today.
    Grace's parents showed her the importance of hard work by 
their consistent example, and she followed their advice that 
education is critical to success. As a result, Grace is living 
the American dream and reaping the fruit of character, hard 
work, education, and integrity. She and her husband Brian have 
been married since 1994 and they have two children, who are 
also here today.
    Grace is also then proud of her Korean heritage, and has 
served on the Board of Korean-American Coalition, and on the 
Fairfax County School Board's Human Rights Advisory Committee.
    Finally, Mr. Chairman, let me add a more personal word. I 
have personally been blessed, during my 31 years in this body, 
to have had many able, smart, and dedicated staff. But I want 
to say, with no disrespect intended for anyone else, that Grace 
is one of the best. Her energy, intelligence, integrity, and 
the quality of her character led me to really rely on her and 
to trust her judgment when she worked on my staff. Her work 
here in the Senate truly enhanced the quality of her service to 
the American people.
    Personally, I was sad to see her leave here, but confident 
that she would bring the same qualities to the Department of 
Justice. She certainly has not disappointed me. I know that the 
Department of Justice in general, and the Civil Rights Division 
in particular, have generated some controversy in the last 2 
years. I hope that, as we move to approve new leadership there, 
we can focus on the fine person before us.
    I have no doubt that anyone who looks at her considerable 
merit will see that all Americans are fortunate to have her in 
this position. Her background, education, experience, and 
character make this one of President Bush's best appointments. 
So I hope that we can complete the confirmation process and 
give her the unanimous vote of confidence that she deserves.
    Mr. Chairman, this is a really fine person. I have never 
seen an instance where she was not acting in the best interests 
of our country and doing the best of her abilities, which are, 
as you can easily see, very considerable. So I am very proud to 
sit by you, Grace, and to recommend you to this Committee, and 
especially to these two leaders who, as I have said before, are 
two of the greatest leaders in the history of the Congress on 
civil rights.
    I thank you, Mr. Chairman, for granting me this time.
    Senator Kennedy. Ms. Becker, would you be good enough to 
stand and raise your right hand?
    [Whereupon, the nominee was duly sworn.]
    Senator Kennedy. Thank you very much. Congratulations.
    I have been troubled by the numerous reports in recent 
years that partisan politics has infected the personnel 
decisions in the Civil Rights Division. Bradley Schlossman, a 
former official in the Division, told the Committee that he 
bragged about hiring Republicans. He also tried to transfer 
three minority women out of the Appellate Section involuntarily 
because he felt they were too liberal. Even though all of them 
had served successfully for years, he said he wanted to replace 
them with ``good Americans''.
    A Deputy Chief of the Voting Section who had served with 
distinction in the Department for 25 years was transferred 
involuntarily to a dead-end training job after he and other 
career attorneys recommended raising a Voting Rights Act 
objection to a Georgia photo ID law that had been pushed 
through by State Republicans. The law was later blocked by the 
courts, which compared it to a poll tax.
    I will withhold here. Would you like to introduce your 
family?

  STATEMENT OF GRACE CHUNG BECKER OF NEW YORK, NOMINEE TO BE 
   ASSISTANT ATTORNEY GENERAL FOR THE CIVIL RIGHTS DIVISION, 
                     DEPARTMENT OF JUSTICE

    Ms. Becker. I welcome the opportunity.
    Senator Kennedy. All right. Please.
    Ms. Becker. Thank you very much, Senator Kennedy. I have 
today behind me, and I guess slightly to your left, my husband, 
Brian Becker and our two children, my daughter, Kira Becker, 
who is 10 years old, and my son, Scott Becker, who is 7 years 
old.
    Senator Kennedy. Are they missing school today?
    Ms. Becker. They went for half a day and they are both 
missing a few teeth, though, of relative recent vintage.
    [Laughter.]
    On the other side of them is my mother, Judith Chung.
    Senator Kennedy. Good.
    Ms. Becker. Over here to your right is my father, Hai Joon 
Chung.
    Senator Kennedy. Fine.
    Ms. Becker. My brother, David Chung, his son, my nephew, 
Peter Chung. And then in the second row is my brother David's 
wife, Erica Chung. Then my cousin, Karen Becker, is also in the 
second row. Then on the back, going across on this side is my 
niece, Sun A Yoon, and a dear family friend who has really been 
like an uncle to me, Lak Moon Chung.
    Senator Kennedy. Very good. You are all very welcome. 
Should we get the coloring books out?
    [Laughter.]
    Smart young people here. Very good.
    Is there any comment that you would like to make at the 
start?
    Ms. Becker. Just to thank the President and the Attorney 
General for the nomination and support, and to thank my family 
members for all of their personal and financial sacrifices so 
that I could be here today, sir.
    [The biographical information of Ms. Becker follows.]

    [GRAPHIC] [TIFF OMITTED] T2266.001
    
    [GRAPHIC] [TIFF OMITTED] T2266.002
    
    [GRAPHIC] [TIFF OMITTED] T2266.003
    
    [GRAPHIC] [TIFF OMITTED] T2266.004
    
    [GRAPHIC] [TIFF OMITTED] T2266.005
    
    [GRAPHIC] [TIFF OMITTED] T2266.006
    
    [GRAPHIC] [TIFF OMITTED] T2266.007
    
    [GRAPHIC] [TIFF OMITTED] T2266.008
    
    [GRAPHIC] [TIFF OMITTED] T2266.009
    
    [GRAPHIC] [TIFF OMITTED] T2266.010
    
    [GRAPHIC] [TIFF OMITTED] T2266.011
    
    [GRAPHIC] [TIFF OMITTED] T2266.012
    
    [GRAPHIC] [TIFF OMITTED] T2266.013
    
    [GRAPHIC] [TIFF OMITTED] T2266.014
    
    [GRAPHIC] [TIFF OMITTED] T2266.015
    
    [GRAPHIC] [TIFF OMITTED] T2266.016
    
    [GRAPHIC] [TIFF OMITTED] T2266.017
    
    [GRAPHIC] [TIFF OMITTED] T2266.018
    
    [GRAPHIC] [TIFF OMITTED] T2266.019
    
    [GRAPHIC] [TIFF OMITTED] T2266.020
    
    [GRAPHIC] [TIFF OMITTED] T2266.021
    
    [GRAPHIC] [TIFF OMITTED] T2266.022
    
    [GRAPHIC] [TIFF OMITTED] T2266.023
    
    [GRAPHIC] [TIFF OMITTED] T2266.024
    
    [GRAPHIC] [TIFF OMITTED] T2266.025
    
    [GRAPHIC] [TIFF OMITTED] T2266.026
    
    [GRAPHIC] [TIFF OMITTED] T2266.027
    
    [GRAPHIC] [TIFF OMITTED] T2266.028
    
    [GRAPHIC] [TIFF OMITTED] T2266.029
    
    [GRAPHIC] [TIFF OMITTED] T2266.030
    
    [GRAPHIC] [TIFF OMITTED] T2266.031
    
    [GRAPHIC] [TIFF OMITTED] T2266.032
    
    [GRAPHIC] [TIFF OMITTED] T2266.033
    
    [GRAPHIC] [TIFF OMITTED] T2266.034
    
    [GRAPHIC] [TIFF OMITTED] T2266.035
    
    [GRAPHIC] [TIFF OMITTED] T2266.036
    
    [GRAPHIC] [TIFF OMITTED] T2266.037
    
    [GRAPHIC] [TIFF OMITTED] T2266.038
    
    [GRAPHIC] [TIFF OMITTED] T2266.039
    
    Senator Kennedy. Fine. Thank you.
    I was asking about the Civil Rights Division and the 
challenge of partisan politics, and had mentioned that Bradley 
Schlossman had bragged about hiring Republicans, and mentioned 
about three minority women who had been transferred 
involuntarily, then a Deputy Chief of the Voting Section, who 
had served 25 years, transferred involuntarily to a dead-end 
training job after raising the Georgia voting rights case.
    The Boston Globe also reported that, beginning in 2003, an 
increasing proportion of attorneys hired in three key sections 
of the Division were members of the Republican National Lawyers 
Association and other conservative groups, and that the number 
of new hires with civil rights experience plunged. That was a 
report in the Boston Globe. Many career section chiefs were 
removed, other career professionals were transferred, denied 
assignments, and found working in the Division so difficult 
that they left.
    So the improper injection of political concerns in a 
personnel matter has devastated morale and undermined the 
Division's mission and reputation. Federal law clearly 
prohibits a political litmus test for career civil service 
employees, and these matters currently are being investigated 
by the Division's Inspector General and the Office of 
Professional Responsibility. It is essential that the next head 
of the Division show leadership in correcting this problem.
    You were in the Division when some of these problems 
occurred. You headed the Division since December of 2007, so 
the public is entitled to learn what you knew about this and 
whether you have done anything to correct the problems.
    Ms. Becker. Thank you for the question, Senator Kennedy. As 
you know, I was a career attorney for over a decade before I 
ever came to the Civil Rights Division. Let me reassure you and 
this Committee that I do not engage in politicized hiring, that 
I have made it clear to my managers in the Civil Rights 
Division that I will not tolerate politicized hiring. The 
allegations--many of the allegations that you raise occurred 
prior to the time that I arrived in the Civil Rights Division 
in March of 2006. Mr. Schlossman was transitioning out of the 
Division at the time that I was starting, so I do not overlap 
with him for any substantial amount of time.
    But I can assure you, as a person who's been a career 
attorney, at the Department of Justice and all over the Federal 
Government, that I know the value of career attorneys. I know 
the value of ensuring, maintaining, and facilitating open and 
robust pre-deliberative conversations, because I think that 
makes for good litigation decisions at the end of the day.
    Senator Kennedy. Well, let me ask, did you, in any of the 
time that you were in there--you headed the Division since 
December 1907--come across these types of activities?
    Ms. Becker. Senator, I am aware of the general allegations 
and that they are being investigated right now by the Office of 
Professional Responsibility and the Office of Inspector 
General, but I am not aware of any new allegations since the 
time between December 1907 and today.
    But you didn't participate in any questioning of any 
potential hirees and ask them political questions?
    Ms. Becker. Absolutely not, sir.
    Senator Kennedy. In 2002, the Department changed its hiring 
procedures to give political appointees the final say in the 
process. It's my understanding that at least in some cases 
political appointees in the Division still conduct the final 
interviews of applicants for career attorney positions. Is that 
correct?
    Ms. Becker. Senator, we have a collaborative approach 
within the Civil Rights Division, where the political and the 
career managers work together to review resumes and interview 
applicants.
    Senator Kennedy. Well, are there instances where the final 
interviews of applicants for career positions, those judgments 
and decisions are being made by political appointees?
    Ms. Becker. It's a collective process, Senator. The 
decision to hire any attorney at the Civil Rights Division is 
one that, you know, we take very seriously.
    Senator Kennedy. Describe ``collective process'' in this. I 
mean, evidently there are circumstances where the political 
appointee is doing the interview for an attorney, for their 
position. I assume from your answer that that is the case, that 
does happen. Does it happen or doesn't it happen?
    Ms. Becker. Everybody participates in the interview 
process, career attorneys and political managers.
    Senator Kennedy. Well, political managers--
    Ms. Becker. Political appointed managers, I should say.
    Senator Kennedy. All right. Well, in some cases it's 
career--I'm just trying to get the answers. So I understand in 
some places that career appointees do the interviews and in 
other places political appointees do.
    Ms. Becker. And sometimes they're done jointly, sir.
    Senator Kennedy. OK.
    Ms. Becker. It depends upon the schedule--
    Senator Kennedy. All right. Some are done jointly. My 
question is, with regard to the political appointees, then what 
happens? They do the interview and they do what? After they 
make a judgment, then they do what?
    Ms. Becker. We have--we have discussions and we try to 
reach consensus, Senator.
    Senator Kennedy. And you're going to continue that process 
if you are approved, or are you going to leave the hiring 
questions up to career?
    Ms. Becker. Senator, as someone who has been a career 
employee, I can tell you what I look for in a potential 
candidate.
    Senator Kennedy. I'm not asking what you're looking for. I 
want an answer to the question. Are you going to permit 
political appointees to make judgments or are you going to have 
career people do the hiring?
    Ms. Becker. I believe this consensus collaborative approach 
has been working well during the two years that I've been at 
the Civil Rights Division, Senator. At this point I'm not 
planning to make any changes.
    Senator Kennedy. Well, the answer then is that you're going 
to continue to permit political appointees to make judgments in 
terms of the hiring of career officers. I'm just trying to get 
the record straight here. It'll be a part of a process. You say 
they'll talk to other people in making final judgments. But 
you're not prepared to give the assurances, given the 
background that we've had in the Department, that in terms of 
the new hires, that those judgments in the Civil Rights 
Division, their interviews are going to be done by career 
personnel?
    Ms. Becker. Those interviews currently are being done by 
career personnel. They are a very large part of the process. I 
take very strong--I weigh very heavily the recommendations of 
the career attorneys in the Civil Rights Division. But as 
deputies in the front office do manage these sections, Senator, 
and do supervise the sections, so long as they are not taking 
political affiliations into account, which is prohibited, and I 
made that entirely clear to my staff, there--I believe that 
there is an appropriate role for the managers to play, sir.
    Senator Kennedy. Have political appointees ever interviewed 
applicants without career attorneys being present?
    Ms. Becker. Senator, I do not know. We usually have a 
process. The section chiefs can choose whether or not they want 
to interview with their--the other individuals in the section 
or if they'd like to come over to main Justice and interview 
with the--
    Senator Kennedy. Well, what are you going to do if you get 
approved? Will you insist that if they're going to follow this 
up, where you're going to have political appointees doing the 
interviews, that there are going to be at least career 
attorneys present?
    Ms. Becker. Senator, I leave it up to the section chiefs to 
choose and to work with them. As long as everybody gets a 
chance to interview, I always think of an inclusive process. So 
if they'd like, they're always welcome to come to an interview 
where a manager in the front office is interviewing them.
    Senator Kennedy. Now, since you joined the Division have 
you ever required section chiefs to obtain permission from your 
office before hiring interns?
    Ms. Becker. I believe they do notify the front office for 
that. Yes, that's correct.
    Senator Kennedy. What is the reason for that? For what 
reason? Why do they have to do that?
    Ms. Becker. It's a managerial function, as I understand it, 
Senator, the process that was in place when I arrived there. 
It's--it's--it's not--it's not a particularly vigorous one. 
It's--it's one that we--we do as a--as a management duty, like 
all of our other management duties, sir.
    Senator Kennedy. Have you--since you joined the Division, 
have you ever suggested a candidate be considered for a career 
position, even though the candidate had not applied through the 
regular application process?
    Ms. Becker. Senator, I believe all of the resumes that we 
receive, we send to the--to admin. if we get them out of the 
normal process, or we tell the applicants to send it to admin., 
which is the through--the way it normally is handled. Some 
people incorrectly mail--send things directly to us in the 
front office.
    Senator Kennedy. Well, I gather then from what you're 
saying, is that there have not been candidates that have not 
gone through the--that haven't been--that have four career 
positions, I gather from what you're saying that there haven't 
been any individuals that have joined the Division that have 
not gone through the--the whole interview process. Is that 
right?
    Ms. Becker. To my knowledge, sir, yes.
    Senator Kennedy. Since you joined the Division, have you 
suggested a candidate be considered for a career position who 
had been referred to you by a current or former political 
appointee?
    Ms. Becker. Not that I recall, no.
    Senator Kennedy. So none of the--your testimony is that 
there have been--there has been no one that has been suggested 
to you by a--for a position in the Department from a political 
appointee?
    Ms. Becker. For a political position, Senator, or for a 
career position?
    Senator Kennedy. Recommended by a political appointee. Did 
anybody, a political appointee, make a recommendation to you 
for any--any--any employment?
    Ms. Becker. Senator, as I sit here I can't think of anyone, 
but, you know, I'd be happy to double check on that. But I 
can't think of anybody that--that may have--
    Senator Kennedy. OK.
    I see Senator Cardin is here.
    Bradley Schlossman, who is a former high-ranking official 
in the Division, testified before this Committee that he 
bragged about hiring Republicans for civil service jobs in the 
Division. Did you ever hear anyone in the Division say anything 
suggesting that political affiliation should be a factor in 
personnel matters in the Division?
    Ms. Becker. Senator, I know that these matters currently 
are under investigation right now, and so I am obviously 
limited in what I can say in that regard, sir. I know that this 
is a topic that is of great interest to this Committee, and I 
have faith that the Office of Professional Responsibility or 
the Office of Inspector General will fully investigate the 
matter.
    Senator Kennedy. Well, I'm not asking so much about what 
they said to each other. I'm just asking whether you had heard 
that.
    Ms. Becker. As I said, this matter is under investigation, 
sir. I don't want to do anything that would jeopardize the 
integrity of that investigation.
    Senator Kennedy. I don't know whether there's a conflict 
with saying what you know. I know that's being investigated, 
but you're entitled to say what you know about this. I don't 
know why you're blocked.
    Ms. Becker. Senator, I'm not. I can tell you that I do not 
engage in political hiring. I've made that entirely clear to my 
staff, not just orally to the managers, but in writing as well. 
I have issued a--reissued the memorandum in December of 2007 
that was issued by my predecessor, making clear to everyone in 
the Civil Rights Division that political affiliation would not 
be an appropriate consideration for career hires.
    Senator Kennedy. OK.
    There have been reports that Mr. Schlossman sought to hire 
attorneys who were members of the Republican National Lawyers 
Association, a group to which you once belonged. Do you ever 
have any reason to believe that any of the Division's political 
appointees were using the Republican National Lawyers 
Association as a source of hiring career attorneys?
    Ms. Becker. Senator, I know that some of these issues that 
you've talked about are under investigation. I can tell you 
personally that I have never gotten any referrals from the 
Republican National Lawyers Association while I've been at the 
Civil Rights Division.
    Senator Kennedy. OK. OK.
    I'll recognize Senator Cardin, then I'll come on back. 
Thank you.
    Senator Cardin. Well, thank you very much, Mr. Chairman.
    Ms. Becker, it was a pleasure having an opportunity to meet 
with you. I thanked you then, and I thank you now publicly for 
your public service, and thank your family for their 
understanding and sharing you with the service that you are 
giving to your country.
    I want to just underscore a point about the importance of 
the position. The Civil Rights Division has been the premiere 
agency to enforce our civil rights laws. As is true with many 
of the fields within Department of Justice, I think it's 
uniquely important on civil rights laws for Federal 
enforcement. It's very difficult for the States to enforce the 
laws. They don't have the tools that you have at the national 
level, including the use of the FBI. You can--that Division 
historically has made such a difference in the lives and 
opportunities of all Americans. It's one of the great 
accomplishments, I think, in the recent history of America.
    I say that because I think Senator Kennedy's questions on 
the independence of judgment here are going to be very 
important in your role as the head of that Division, if 
confirmed by the Senate. Let me just mention, perhaps--and I 
would like to get your view as to the importance of this role 
and being able to stand up to the politics within the 
Department of Justice, standing up to partisan politics, 
standing up to whatever you have to to carry out the 
responsibilities that are entailed in heading that Division. So 
maybe I'll pause for a moment and give you a chance, and then 
I'm going to ask you specifically about one area.
    Ms. Becker. Thank you, Senator Cardin. I do very much 
appreciate the importance that the role of the Civil Rights 
Division has played. Just recently over the last couple of 
months, we have been celebrating the 50th anniversary of the 
Civil Rights Division, as Senator Kennedy mentioned in his 
opening statement.
    It was a wonderful opportunity to look back upon the 
formation of the Division and some of the history that 
underlays what we do here in the Civil Rights Division. It's a 
tremendous honor and a privilege to work day by day with the 
men and women who are dedicated to enforcing Federal civil 
rights laws in this area.
    Senator, I can assure you that, as someone who's been a 
former prosecutor, as someone who's been a career attorney for 
over a decade, as someone who's worked in all three branches of 
the Federal Government, I can appreciate the importance of 
enforcing the law. I know I have a very healthy appreciation 
for the three branches of government and the three roles that 
they play, three very distinct roles that they play. I believe 
that the role of the executive branch, the Justice Department, 
and the Civil Rights Division is to engage in law enforcement 
and to vigorously enforce all of the Federal civil rights laws.
    Senator Cardin. I want to talk about one area specifically, 
which is going to be voting rights, but it could be housing, it 
could be hate crimes, it could be other areas where, quite 
frankly, the impression in the community is that there has been 
political interference with the traditional role of the 
Department of Justice Civil Rights Division. I share that. I'll 
tell you up front that I am concerned that we have not had the 
objective enforcement of these laws as we have in previous 
administrations.
    But elections are pretty fundamental and we're going to 
have a major national election coming in November. I think it's 
critically important that the Department of Justice Civil 
Rights Division be actively involved to hopefully prevent 
fraudulent activities, to ensure that, to the maximum extent 
possible, those who wish to participate in the elections are 
able to participate in the elections and that votes are 
properly counted.
    So let me tell you the dilemma that I face as a United 
States Senator. I am concerned that there will be political 
pressure placed on the Department of Justice, the Civil Rights 
Division, to use your resources as aggressively as possible to 
make sure that no one who is not eligible to vote and 
registered is found and make sure that person doesn't vote, 
even though there is little evidence of any significant problem 
of people voting who are not eligible and registered to vote.
    I'm afraid that that's going to be the directive, exclusive 
of activities that have taken place in the last several 
elections that have clearly been aimed at minority communities 
to prevent minority communities from participating in the 
numbers that they otherwise would: literature that's 
distributed giving the wrong election day in minority 
communities; literature that's distributed, threatening people 
with being arrested and put in jail if they have unpaid parking 
tickets and attempt to vote; literature aimed at minority 
communities, clearly part of election strategies to try to 
diminish the importance of minority voting.
    I would think that the Department of Justice, the Civil 
Rights Division, could play a really important role to make it 
clear that those types of election tactics will have no place 
in America. I suspect that you will probably agree with me, but 
I am concerned that there may well be political influence 
that's attempted to be exercised to prevent you, as the 
Division chief, from making an independent judgment that the 
resources should be placed to make sure that vulnerable people 
are not intimidated from voting.
    I would just give you a chance as to whether you would 
stand up to that pressure and whether you're prepared to make 
an independent judgment on the set of facts which I believe the 
communities have pretty well already come in with their 
concerns. But I want to have assurances that, if you are 
confirmed, that you would make this independent judgment and 
stand up for the enforcement by the Civil Rights Division that 
can have the most impact on enfranchising people to vote, 
particularly minorities.
    Ms. Becker. Senator, thank you for that question. I think 
we agree that voting is a fundamental right. As the Supreme 
Court has stated, it's so significant because it's preservative 
of all the other rights that we have. I've only been overseeing 
the Voting Section for three months, but in that very short 
time period I have made clear to everyone in the Voting Section 
that I want to vigorously enforce all the provisions, all the 
statutes, all the voting statutes that are entrusted to the 
Civil Rights Division to enforce, because that's what I believe 
our job is to do, to open up the vote to as many people as we 
can.
    You talked about some instances that may adversely affect 
minorities. That is something that we, of course, are very 
concerned about in the Civil Rights Division, and if any of 
those activities implicate one of the statutes that we enforce, 
I can assure you that we will take appropriate action in that 
regard.
    You also talked about voter fraud. There has been a 
traditional division of labor within the Department of Justice, 
and that's reflected in Regulation 28 CFR 0.50, which sets 
forth the responsibilities of the Assistant Attorney General 
for the Civil Rights Division, and 0.55, which delineates the 
responsibilities of the Assistant Attorney General for the 
Criminal Division.
    The vast majority of election crimes are entrusted to the 
Criminal Division to enforce. There is a small subset that 
could potentially come to the Civil Rights Division, usually 
when it involves some allegation of discrimination, which are 
the types of allegations that we see throughout the Division. 
So I can assure you that from the Civil Rights Division 
perspective, that we will vigorously enforce all the laws that 
we are entrusted to in full.
    Senator Cardin. I would also hope you would be more 
aggressive than that, in that if you don't have enough laws, 
let us know about it. We asked the Department of Justice to 
investigate the conduct of the 2006 election. They declined to 
do it. They indicated they didn't believe they had adequate 
laws to handle those circumstances. There has been legislation 
pending in this Congress on which we've gotten zero help from 
the administration in getting passed where we give additional 
tools to go after targeting of minority communities to prevent 
them from voting, which I would think is fundamental to the 
mission of the Civil Rights Division.
    I understand these are criminal offenses and you have a 
Criminal Division, but to me these are fundamental civil rights 
that should be of interest to the Civil Rights Division. 
Senator Mathias came down to testify in favor of that, the 
distinguished former Senator from Maryland, a Republican.
    I think there is strong bipartisan support to make sure 
that everyone can participate in this election. I hoped this 
wouldn't be a partisan issue. I think, without the leadership 
of the Department of Justice making it clear to candidates that 
this is off the table, that you can't try to disenfranchise 
people in order to win an election--that requires leadership.
    I think the Division of Civil Rights is the appropriate 
agency within the Department of Justice to exercise that 
leadership to make sure we have adequate tools in order to 
enforce the law. If you don't, ask for more tools and make this 
a top priority, knowing full well what has happened in so many 
States, including my own, in recent elections.
    Ms. Becker. Senator, I appreciate that offer. If there are 
additional tools that we would need, I welcome the opportunity 
to approach you for any additional tools.
    I will tell you, I do know we have discussed your voting 
bill. I know that this is something you feel very strongly 
about, and there are certainly provisions in that bill, as the 
Department has indicated in its newsletter, that it does 
support--the criminal provisions, I know, are helpful, some of 
the--provisions that are in there if people are saying that you 
should vote on Tuesday instead of Wednesday, things of that--
false information.
    But there--as you know, as I delineated in the letter, some 
concerns with regard to campaign rhetoric and whether or not 
the Justice Department should publicly issue corrective action 
to correct the campaign rhetoric of candidates, and that's an 
issue that I'd like the opportunity to continue to work with 
Congress on, if I have the opportunity to do so, and to be as 
cooperative as I can with respect to various provisions of that 
legislation.
    Senator Cardin. Well, I welcome those discussions. Quite 
frankly, I welcome leadership in the Civil Rights Division that 
will stand up for the traditional role of that agency.
    Thank you, Mr. Chairman.
    Senator Kennedy. Thank you, Senator.
    You know, Ms. Becker, one of the first actions you took as 
the Acting head of the Division was to file a brief urging the 
Supreme Court to uphold a strict Indiana photo ID requirement 
for voting, which had the potential to disenfranchise large 
numbers of minority voters. A broad coalition of civil rights 
advocates expressed deep concern about the Indiana law 
undermining voting rights. The law is also widely viewed as 
benefiting Republicans, raising the appearance that the 
Division's support of the law is politically motivated.
    Given the potential harm to minority voters, the fact that 
Indiana was well represented by competent counsel and the 
appearance that the Division was acting for political reasons, 
why did you think it necessary to file a brief supporting the 
Indiana photo ID law?
    Ms. Becker. Senator, thank you for that question. As you 
know, this is a case that's currently pending before the 
Supreme Court. The Solicitor General filed a brief on behalf of 
the United States of America, and I joined that brief on behalf 
of the Civil Rights Division. I can share with you the Civil 
Rights Division perspective, but with the caveat that there are 
other government interests as well. We enforce the Help America 
Vote Act in the Civil Rights Division.
    In that statute it requires that individuals who register 
by mail, who go to vote in person for the first time, have to 
show some form of identification. Not necessarily photo 
identification, but some form of identification. There's a 
concern that the Supreme Court's ruling here may undermine our 
ability to vigorously enforce the Help America Vote Act. There 
are also seven Members of Congress who filed amici briefs on 
that very issue, sir. But if I may just add that I think that 
voter ID laws generally--
    Senator Kennedy. Were they all Republicans--
    Ms. Becker. No, sir.
    Senator Kennedy.--the members that signed?
    Ms. Becker. No, sir. I do--if I may, sir, I do think it's 
important for us in the Civil Rights Division to look at voter 
ID laws, and in fact any law that has the potential of being 
used as a pretext to suppress minority votes very carefully. 
Senator, I believe that we need to take these instances on a 
case-by-case basis. Whether it is this law or any other law, if 
it has a retrogressive effect or a discriminatory purpose, that 
is something that we will take appropriate action on in the 
Civil Rights Division, as we have in other voting cases in the 
Supreme Court.
    For example, in Riley v. Kennedy, we filed an amicus brief 
on behalf of African-American voters, defending the Section 5 
objection that we had interposed. Again, that was a brief filed 
by the Solicitor General's Office, but one that my name appears 
on as well.
    My name also appears on another Supreme Court amicus brief 
that the Solicitor General filed involving Cracker Barrel, 
where we argued on the side of the employee, that a Section 
1981 claim, which is a private civil rights claim involving 
contracts, includes retaliation. So if you look at the broad 
swath of cases that we've brought in the Civil Rights Division, 
I think that you will see that we try to take these cases on a 
case-by-case basis and vigorously enforce the laws in the Civil 
Rights Division.
    Senator Kennedy. Well, what was it about the Indiana photo 
ID case that was the most troublesome to you? This isn't an old 
issue. We have the Georgia ID case. The court decision that 
found that, in effect, it overrode--political personnel 
overrode the career individuals in the Justice Department, felt 
that it was more of a poll tax.
    What was it about the Indiana photo ID that so distressed 
you?
    Ms. Becker. Senator, if I may, just--I've only been 
overseeing the Voting Section for 3 months. I was not there at 
the time when some of the Georgia ID decisions that you are 
concerned about were made. I--I can tell you that--I can talk 
about the process part of it, what my philosophy is in 
management in terms of including career--
    Senator Kennedy. It's a pretty major--pretty major civil 
rights case--
    Ms. Becker. Yes, sir. And I'm--
    Senator Kennedy.--the Georgia ID case. Add in the Texas 
case, the two most notorious cases certainly in the civil 
rights area in the recent times.
    Ms. Becker. Senator, those are both cases that I was not 
supervising the Voting Section at the time. I am generally 
familiar with those cases. I can tell you--
    Senator Kennedy. Well, I'm just trying to figure out what 
it was about the Indiana photo ID case that you felt so 
strongly about in terms of, you thought it was necessary to 
file the brief in the Indiana photo after the history of the 
Georgia case, which was political interference with government 
officials overriding government judgments, and then eventually 
being struck down. What--so that's a pretty red flag. And then 
you felt, evidently, that the Indiana brief, that you ought to 
be signing onto that. I'm just wondering what it was in this 
Indiana photo ID case that--that troubled you so much in terms 
of--of its--it's--that you thought that you ought to get 
involved in it.
    Ms. Becker. Senator, as you know, this is pending before 
the Supreme Court right now and, pursuant to Departmental 
policy, I can't get into the substance of pending litigation. 
But what I can--
    Senator Kennedy. You can talk about the case. You can talk 
about the case. I mean, there's no reason--you filed a brief on 
the case. There's no reason you can't talk about the case.
    Ms. Becker. Exactly, Senator. And I think the brief speaks 
for itself and the--
    Senator Kennedy. Well, I'm not asking the brief, I'm asking 
you. You're the one. I'm not proving the brief. I'm asking you. 
You're the one that filed it.
    Ms. Becker. Senator, it's--it's pending litigation. I'm not 
at liberty to discuss the substance of that.
    Senator Kennedy. I'm not asking the substance.
    Ms. Becker. But I'd be happy--
    Senator Kennedy. Just describe what you talked about in the 
brief, why you filed--what you felt was so necessary in terms 
of filing the brief on the photo ID law. That's a big deal. In 
terms of voting rights, it's a big deal.
    Ms. Becker. Senator, I can appreciate that you're 
interested in this case, as am I. I am very interested in--
    Senator Kennedy. Well, I authored the poll tax back in 
1965. I care very deeply about the poll tax. I offered it. And 
I also was the principal sponsor to make it a constitutional 
prohibition on it. So I followed these things for some period 
of time, and this is the--the action of the Justice Department 
in the Georgia case is one of the most egregious actions that 
have been taken in recent times. We have a similar case that 
you felt it was necessary in Indiana, a photo ID case. And I'm 
just asking you, why--why you felt it was necessary. And you 
said you can't comment on it, although you filed a brief on it.
    Ms. Becker. Senator, if I have the opportunity to, I'd be 
happy to discuss this case after the Supreme Court renders its 
decision. But at this point, Senator, the Solicitor General is 
representing the United States in the--
    Senator Kennedy. I asked you if you could talk about your 
brief, Counselor. You could talk about your brief. That's not--
that's not--you can talk about your brief. You filed a brief. 
You can talk about that.
    Ms. Becker. Senator, my understanding is that Departmental 
policy does not permit me to get into the substance, sir.
    Senator Kennedy. Well, let me--let me move on. Let me move 
on.
    One of the--this is a general concern that--that I have. 
You've been a political appointee in the Division for the past 
2 years, and during that period many of the events under 
investigation by the IG or OPR played out and the investigation 
has been ongoing. For this entire time you've had the power to 
correct the kinds of personnel abuses that are being 
investigated.
    You and the Department have been reluctant to share 
information during this period. So before you're confirmed as 
head of the Division, we have to be certain that you haven't 
been involved in any of the practices under investigation and 
that you have, in fact, taken steps to correct them. Why 
shouldn't we have that as a--as a rule?
    Ms. Becker. Senator, with respect, sir, this is a matter 
that is currently an investigation. As I submitted to you in 
writing prior to the hearing, sir, I've been cooperating fully 
with the investigation. I provided documents pursuant to a 
document request. They have not contacted me. They have not 
requested to interview me. I have not had substantial overlap 
with Mr. Schlossman and I'm not a percipient witness to events 
that occurred prior to my joining the Civil Rights Division.
    Senator Kennedy. Do you think it would be worthwhile for us 
to talk to them and find that out for ourselves?
    Ms. Becker. Senator, I believe the timing of my employment 
in the Civil Rights Division speaks for itself, as does my 
commitment, and service, and experience that I bring to the 
table here today.
    Senator Kennedy. OK.
    Senator Cardin?
    Senator Cardin. Thank you, Mr. Chairman.
    I just have a couple brief points, and then I know Senator 
Whitehouse is here and I won't take too much time.
    Let me talk a little bit about the housing problem, which 
is something we have not really focused much on from the point 
of view of the Department of Justice and the Civil Rights 
Division. We are concerned that part of the housing problem is 
predatory lending, where those who were qualified to be in 
regular mortgages and non-adjustable mortgages were steered 
into subprime mortgages and adjustable rate mortgages, and that 
those communities that were primarily steered into this type of 
practice were minority communities. There is concern in 
Baltimore City. They've actually filed a lawsuit in this 
regard. I would like to know your view as to the level of 
interest that you would have as the Division chief of the Civil 
Rights Division on predatory lending practices that were 
involved in the current housing crisis.
    Ms. Becker. Senator, thank you for that question. I think 
owning your own home epitomizes the American dream for so many 
individuals here in this country, and if there's something that 
we could do in the Civil Rights Division to ensure that people 
have an equal opportunity to achieve that dream without 
encountering illegal housing discrimination, Senator, I support 
the vigorous enforcement of those laws.
    I've had the honor and privilege of supervising the Housing 
and Civil Enforcement Section for the last two years, and I am 
familiar with the work that we've--we've done there. We have 
been very concerned about the subprime mortgage issue that has 
been of great concern to everyone in this country, I know, and 
to the Congress. We have an inter-agency working group that 
includes the bank regulatory agencies, the Federal Trade 
Commission, Housing and Urban Development, and the Department 
of Justice.
    We enforce two statutes in the Housing and Civil 
Enforcement Section, the Equal Credit Opportunity Act and the 
mortgage provisions of the Fair Housing Act, which enables us 
to bring some fair lending cases and we've been able to obtain 
over $25 million of monetary relief on behalf of African-
American and Hispanic victims in this area.
    The--the deceptive terms, deceptive ads, the predatory 
practices that you were talking about fall primarily within the 
jurisdiction, I think, of the FTC and some of the other--
perhaps, and the State AGs, I think, have brought some cases 
under State law in this regard. A lot of the work that we do in 
the fair housing--fair lending area, I should say, is 
complementary to that.
    We bring--in two areas. One, is pricing discrimination, 
where individuals of minorities may be treated to one interest 
rate, a higher interest rate than whites, and the other is in 
red-lining, where we--where prime lenders refuse to do business 
in minority neighborhoods, making those minority neighborhoods 
more susceptible to the subprime market.
    Senator Cardin. And here's where you're going to have a 
problem in dealing with this issue, because the lending 
institutions will tell you that one of the reasons they went 
into the minority community is to show that they were 
interested in making credit available within the minority 
community, sort of the reverse of red-lining.
    But on the other hand, if the evidence shows that in 
minority communities they were steered into subprime loans 
where they should have been in traditional mortgages, that's a 
form of discrimination against minority communities that needs 
to be attended to. Once again, I think there are agencies that 
can handle some of this.
    The Civil Rights Division is in a unique position. I would 
hope this would be something that you would try to help assist 
them so that we get it right. We don't want the results of what 
we do to try to fix the housing crisis causing minority 
communities to be red-lined from mortgage opportunities. But on 
the other hand, if there were injustices done, the community is 
entitled to relief.
    Ms. Becker. Senator, I agree. We have this inter-agency 
approach. We're working proactively with the other agencies in 
coordination with them in order to help all the victims that 
have been suffering under the subprime mortgage crisis.
    Senator Cardin. Let me just ask one more question. That is, 
if you are confirmed, whether you will look to bring more 
pattern or practice cases in regards to employment 
discrimination. It's my understanding there's been a 30 percent 
decline in these types of cases in this administration compared 
to prior administrations. The pattern or practice cases have 
been major--areas to make major advancements that affect a 
significant number of individuals. Would you commit to 
reviewing this situation and determining why there's been a 
decline and look for opportunities in which civil rights can be 
advanced through the pattern or practice cases?
    Ms. Becker. Senator, I share with you the significance and 
the importance of pattern and practice cases based upon my 
supervision of other civil sections in the Civil Rights 
Division over the last 2 years. I've only been overseeing the 
Employment Section for about 3 months now, but I can tell you 
that I've looked at this issue.
    My understanding is that, on average, the section over a 
decade, I guess, across both administrations, has been about 
two pattern and practice cases a year. I do know that they 
opened 14 pattern and practice investigations last year and 
that the section is now trying to prioritize those pattern and 
practice cases. So I share--I appreciate your concern that 
pattern and practice cases are important and that you want us 
to bring more. I want us to vigorously enforce all of the laws 
that we have, including the pattern and practice laws.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kennedy. Just to pick up on this point, you've only 
been in 3 months. But as the Senator pointed out, we have seen 
the increase--the numbers have decreased 50 percent--has 
declined 50 percent under the Bush administration compared to 
the Clinton administration on Title 7. EEOC says the total 
number of discrimination has increased by 10 percent in 2007. 
So that's a significant increase. Your response to Senator 
Cardin, you've only been in 3 months. The question is, are you 
going to do something about it?
    Ms. Becker. Senator, it--
    Senator Kennedy. And what--what--what are you going to do 
about it, and how worried are you, if the Senator would just 
let me--please.
    Ms. Becker. Senator, thank you. My understanding is that 
EEO referrals in recent years have gone down. I can--but I--as 
I understand it. But I can tell you what I told Senator Cardin, 
which is that we have 14 investigations that were opened in 
2007, that the section currently is prioritizing those 
investigations of pattern and practice cases. So, Senator, even 
in the short time that I've been in the Employment Section, I 
believe that I have taken action. I hope I have the opportunity 
to continue to do so.
    Senator Kennedy. Well, just if I can have the attention of 
the Senator from Maryland, as well, the Division has filed as 
many cases alleging discrimination against whites as against 
African-Americans and Latinos combined. It's brought only six 
cases alleging discrimination against African or Latinos, yet 
it's filed five cases of discrimination on the basis of whites. 
Clearly, where there's problems we want prosecution, but we 
also want the Department to reflect where the problems are the 
greatest.
    Ms. Becker. Senator, thank you for that question. As I 
said, I am committed to enforcing all the laws in the Civil 
Rights Division. I know that the Employment Section recently 
brought a pattern and practice lawsuit against the largest fire 
department in--fire department in the entire country, in the 
fire department of New York. This is a case that was brought on 
behalf of African-Americans, Senator, and it's a relatively 
recent case and I hope to have the opportunity to bring more 
employment cases, if I'm confirmed by the Senate.
    Senator Kennedy. Senator Whitehouse?
    Senator Whitehouse. Thank you, Mr. Chairman.
    Ms. Becker, welcome to the hearing. I'm delighted to see 
you here with your family. I applaud particularly how well your 
son and daughter are being patient through all of this. I 
particularly applaud your son's choice of reading material. I'm 
a big fan of Calvin and Hobbs. Mine is 14 and we still read it 
together, reading ``Spaceman Spiff''. That's pretty good.
    Ms. Becker. Thank you.
    Senator Whitehouse. I hope you understand why we're asking 
these questions. We don't start here with a clean slate, nor do 
you. We start looking at a Department of Justice that is a 
place that many of us feel is very special. I was a United 
States Attorney. It's not the biggest deal in the world, but it 
was very important to me, and it meant the world to me to go 
into that Department of Justice and feel the traditional, the 
integrity, the independence, the feel that this was an 
institution that stood for something in American life, and the 
idea that that Department, instead of standing tall, should be 
put into the political traces, put in political harness by a 
political party to do its political legwork, is disgraceful, 
irrespective of what political party is trying to do that.
    So we come at this with a lot of feeling when we see what 
happened to the U.S. Attorneys, when we see what happened at 
OLC, when we see what happened at the Civil Rights Division, 
when we see what happened to the honors program, when we see 
what happened to non-partisan hiring. This is a very, very 
serious matter, and so, you know, I hope you'll forgive the 
intensity that we're pursuing this with.
    But I hope you also understand that we're doing this 
because many of us fear for this Department. We want to see it 
put right again. We care very, very deeply about that. We see 
some of the Civil Rights Division issues in that context. I 
look--for instance, I've sponsored a bill that would make it 
illegal to engage in vote caging. Do you know what vote caging 
is?
    Ms. Becker. Yes, sir.
    Senator Whitehouse. OK. So I don't need to go into the 
details of that.
    Clearly, you will concede that if there is a significant 
campaign to target--for instance, minority votes in a vote 
caging operation--it creates, at a minimum, the risk that more 
than a handful of voters might be discouraged. Correct?
    Ms. Becker. Senator, I believe that whether it's vote 
caging or any other conduct that has the potential of 
suppressing minority voters, it's something that the Civil 
Rights Division is very concerned about, particularly if it can 
implicate one of the Federal laws that we enforce.
    Senator Whitehouse. Would you be concerned enough for the 
Department to support the vote caging legislation?
    Ms. Becker. Senator, I have not had an opportunity to look 
at the details of that legislation and I don't believe the 
Department has spoken on that. I do believe, Senator, that 
there are some criminal provisions in there and, as I mentioned 
earlier, I want to--I want to tread carefully here because we 
do have a division of labor in the Department of Justice where 
the vast majority of election crimes are prosecuted by the 
Criminal Division. So there may be other equities at stake here 
by other components of the Department of Justice. But--
    Senator Whitehouse. Understood. But could you get me an 
answer on that? The bill is pending now. I've put it in, and 
I'd love to know where you stand.
    Ms. Becker. Well, Senator, if I'm confirmed, I would 
welcome the opportunity to work with you on this bill, or any 
other bill, sir.
    Senator Whitehouse. And I--just to followup on what Senator 
Kennedy was saying, it really does seem that where the 
underlying strategy will discourage voting in minority 
communities--for instance, with voter ID programs which have 
that effect--the Department steps right up, steps right up and 
does its best, even when there are really no significant cases 
of any voter fraud, and the idea that half a dozen or handful 
of votes is going to swing the election one way or the other is 
a theoretical possibility.
    But, my gosh, that happens rarely in America, and yet, 
there seems to be a very considerable focus on that. And when 
the drift is the other direction, when, for instance, there is, 
you know, e-mails from a prospective U.S. Attorney about a vote 
caging scheme, silence. There doesn't seem to be the same 
interest. So what I need to hear from you is some assurance 
that this is not going to be the closing days, you know, the 
last political stand of the political occupancy of the 
Department of Justice, but that you'll help us to put this 
right and that you will enforce the laws, irrespective of 
whether they help Republicans or Democrats.
    Ms. Becker. Senator, having been a career attorney, 
starting my career at the Criminal Division of the Department 
of Justice, I share with you the concern that you have and the 
pride that you had in representing the Department of Justice. 
And Senator, I hope that even in the short time that I've been 
able to be in the managerial ranks of the Civil Rights 
Division, that I've been able to convey that same pride and 
leadership and camaraderie that has always been such an 
instrumental part of the Department of Justice.
    And I believe that what makes the Department of Justice so 
special, what makes people have confidence in the Justice 
Department, which makes judges expect more from DOJ attorneys, 
is the fact that we need to fairly and even-handedly and 
vigorously enforce all of the laws in the Voting Section, in 
all the sections of the Civil Rights Division, so that everyone 
has full faith and belief that we're doing everything we can 
from every possible front. We take each--each case, each matter 
on a case-by-case basis, but we will vigorously and carefully 
investigate the facts and law in each case and take appropriate 
action wherever necessary.
    Senator Whitehouse. And, of course, you understand that 
it's not enough just to say that, it's important to lead the 
Department in such a way that the results and the statistics 
actually bear that out?
    Ms. Becker. Absolutely, Senator. I--I--I believe that in--
in the 2-years that I've been there overseeing the sections 
that I've overseen, and Voting has not been one of those 
sections, that I have tried to encourage the managers within 
those sections to do exactly that, and that I will continue to 
do so if have--I have the opportunity to lead the Division.
    Senator Whitehouse. Thank you, Mr. Chairman. My time has 
expired.
    Senator Kennedy. OK.
    Senator Schumer?
    Senator Schumer. Thank you. First, Mr. Chairman, let me 
thank you for holding this hearing. I think it's really 
important. This is an area I know you've been concerned about 
for close to--well, certainly more than 40 years, and I care a 
lot about it, too.
    I first, as a New Yorker, want to welcome you here, Ms. 
Becker. I'm always pleased to see a graduate of Stuyvesant High 
School in public service. My daughter went to Stuyvesant. My 
parents wanted me to go, but I wanted to play basketball at 
Madison so I told them the only answers--
    Senator Kennedy. You wanted to do what?
    Senator Schumer. Play basketball. Mr. Chairman, our team's 
motto was, ``We may be small, but we're slow.''
    [Laughter.]
    Ms. Becker. I'll tell you, do you know what our school 
motto was?
    Senator Schumer. And we were better than Stuyvesant.
    Ms. Becker. What we used to say at Stuyvesant is, ``Kick 
'em in the guts, kick 'em in the knees, we get higher SATs,'' 
was what our athletic motto was after we lost.
    Senator Schumer. Well, I told my parents the only questions 
on the test I'd get right were the ones I didn't know the 
answer to, because anyone I knew the answer, I'd mark the wrong 
answer. I'd flunk and stay at Madison, which is what happened.
    Anyway, I'm sure your family's proud here. I know the whole 
Korean community in New York, or many of them, are very proud 
of your accomplishments and it's a great community in New York. 
Of course, we believe in immigration and we believe in ladders 
up for people who come from all over the world, and so I'm 
proud that you're here.
    But that doesn't sort of dampen my worry about this 
Department, my worry about what's happened in this Department. 
I think it's been plagued by not only mismanagement, but 
improper politization. I think it's improving, but the 
Committee needs to examine your qualifications closely because 
this administration has not been a friend, in my judgment, of 
civil rights. For instance, what happened with the Georgia 
case. All the things we heard about, it just makes you really 
worry about the Department.
    So I'm going to ask you some tough questions, and I hope 
you don't mind that. It has nothing to do with you or the 
accomplishments that you've had. So I want to go back to the 
Crawford case, which Senator Kennedy, I know, asked some 
questions about. But I want to take it in a slightly--I want to 
pursue it further.
    You know what the law is, the new photo ID. In the amicus 
brief you submitted with the Solicitor General, Paul Clement, 
you urged the Supreme Court to uphold Indiana's restrictive 
law, in part because it's justified by the need to prevent in-
person voter fraud. And let's be clear here: this will not deal 
with all voter fraud and ID, but just in-person voter fraud, 
where someone shows up and says they're not who they are.
    What I'd like to do is try to get, as much as I can, yes or 
no answers here. First, did anyone at the White House or 
outside the Justice Department ask you or urge you to take the 
position you did in the Indiana voter ID case?
    Ms. Becker. No.
    Senator Schumer. OK.
    Did anyone inside the Justice Department put any pressure 
on you to take a certain position in that case?
    Ms. Becker. No.
    Senator Schumer. Did you consult any career staff members 
in the Civil Rights Division before you took the position?
    Ms. Becker. Of course. We do in every case, sir.
    Senator Schumer. And did they recommend that you take that 
position unanimously, or--
    Ms. Becker. I can't talk about predeliberative 
recommendations, Senator. But I can tell you that, as someone 
who's been a former career attorney, I believe that career 
attorneys have very important perspectives to add to the 
process and I certainly have encouraged and welcomed a 
predeliberative process in all of the cases.
    Senator Schumer. Let me ask you this. Since most election 
crimes are handled by the Criminal Division--you noted that 
earlier--is there any reason why Alice Fisher didn't sign onto 
this brief with you or instead of you?
    Ms. Becker. I don't know her.
    Senator Schumer. Well, you must have--wait, that's not good 
enough. It's usually handled by the Criminal Division. Alice 
Fisher didn't sign. Did you ever talk to Alice Fisher even once 
about this case?
    Ms. Becker. Senator, I can't get into predeliberative 
discussions. I can only tell you that the brief speaks for 
itself, sir.
    Senator Schumer. Wait. Can you explain to me why you can't 
get into predeliberative discussions? This is an important 
question. The head of the Criminal Division, which usually has 
jurisdiction, doesn't sign on. You do instead. Now, what is the 
reason that you can't answer a simple yes or no question about, 
did you discuss this with Alice Fisher? That doesn't reveal any 
confidences or whatever.
    Ms. Becker. Senator, I can tell you that the names that are 
reflected on the cover of the brief submitted by the United 
States are--are--speak for themselves, sir.
    Senator Schumer. Did you ever talk to Alice Fisher about 
this, yes or no?
    Ms. Becker. Senator, my understanding is it's part of the 
predeliberative process and I'm not at liberty to discuss that. 
But I can tell you--
    Senator Schumer. And why? What is the reason you're not at 
liberty to discuss it?
    Ms. Becker. Well, Senator, in order to encourage robust 
predeliberative discussions, it's important--it's a 
longstanding departmental policy, Senator, to protect those 
discussions, and that's part of the discussion.
    Senator Schumer. But that's about the substance of what was 
discussed. I'm just asking you, yes or no, did you discuss it 
with Ms. Fisher?
    Ms. Becker. Senator, my understanding is--is that--it's 
covering generally those discussions. All the interested 
parties were--were--were included in the discussion.
    Senator Schumer. Let me ask you--let me pursue another line 
here. In the brief, you state that Indiana determined that it 
faced ``a serious problem of actual and potential election 
fraud'', right? Are you aware of any election in the past 7 
years where the outcome was affected by in-person voter fraud, 
the kind you're trying to eliminate, supposedly, with these 
voter IDs? Any case? Any election?
    Ms. Becker. Senator, this--I'm not--this is a case that is, 
as I indicated to Senator Kennedy, is one that's pending before 
the Supreme Court. This is a--that's some of the issues that 
are pending, that were discussed as part of the case. Senator, 
once the Supreme Court renders its decision, I'm happy to 
engage in substantive discussion.
    Senator Schumer. Ms. Becker, I didn't ask you a question 
about the case. I asked you a question about your jurisdiction. 
If you can't answer this question, I'm going to have serious 
doubts whether you can move forward. I asked you--you can't 
just duck everything here and expect to get this nomination. 
Are you aware of any election in the past 7 years where the 
outcome was affected by in-person voter fraud? I haven't 
mentioned any case.
    Ms. Becker. Senator, as I understand it, criminal voter 
fraud issues are primarily handled by the Criminal Division. I 
can tell you with--generally--as I understand it, this is a 
general question. My jurisdiction in the Civil Rights Division 
is to enforce the voting rights laws that are entrusted to the 
Voting Section to enforce. Most of the criminal voting fraud 
issues that you're talking about would be a matter for a 
different component of the Justice Department.
    Senator Schumer. So you can't cite to me. You signed this 
brief. Ms. Fisher didn't. And you can't cite to me a single 
election where the outcome was affected by in-person voter 
fraud, when that's the only kind of voter fraud that a voter ID 
at the polling place would deal with, correct?
    Ms. Becker. Well, Senator, I was talking about the general 
division of labor with respect to that. I was not talking 
specifically about the Crawford case. As I understood your 
question, sir, it was a general question and I was giving you a 
general response.
    Senator Schumer. Can I ask you this: isn't it true that a 
voter ID law won't stop absentee ballot fraud?
    Ms. Becker. Senator, there--Senator, generally speaking, 
you know, whether these are voter fraud laws that are handled 
at the State level, there are States--
    Senator Schumer. No, no.
    Ms. Becker.--look at them. We would look at them, from the 
Civil Rights Division perspective, as to whether or not they 
have a retrogressive effect or discriminatory purpose.
    Senator Schumer. I am asking you a simple question.
    Mr. Chairman, can I have a couple more minutes to pursue 
this?
    Senator Kennedy. Yes. Sure.
    Senator Schumer. Thank you. I appreciate it.
    I'm just asking you a simple question. We have a law that 
you're defending. It says you have to show a voter ID. The 
reason for that is to prevent voter fraud. You haven't been 
able to cite to me a single case--in-person voter fraud--where 
in-person voter fraud affected the election. Now I'm asking you 
again, this is a question based on your practical experience, 
two years as Deputy Director.
    Isn't it true that a voter ID law won't stop any absentee 
ballot fraud for the very reason that the person isn't showing 
up? Isn't that--that's just an easy yes-or-no question.
    Ms. Becker. Senator, voter--voter--photo ID laws address 
in-person issues. I think that's what you're getting at, 
generally. I will tell you, voter fraud--the reason why I'm 
giving you an answer is because it's a different component of 
the Justice Department that handles those types of cases. I'm 
not trying to evade your question, sir. This--there's a 
division of responsibility within the Justice Department---
    Senator Schumer. But you--
    Ms. Becker.--and the voter fraud cases, or election crime 
cases generally, are handled at the--at the Criminal Division.
    Senator Schumer. You signed the brief. Alice Fisher didn't.
    Ms. Becker. Yes. And I can tell you what the Civil Rights' 
interest was.
    Senator Schumer. Let me just finish. Let me just finish. In 
the brief, the only cases that were cited, as I understand it, 
were absentee voter fraud. Yet, the brief goes to voter ID at 
the polling place, which can only deal with in-person voter 
fraud. And so I'm asking you a simple question, and that is--I 
can't--I know you won't answer about the case, although I don't 
think that's fair. Isn't it true that a voter ID law will not 
stop absentee ballot fraud? You--you give me one single 
instance where voter ID stops absentee ballot fraud. Give me an 
example.
    Ms. Becker. Senator, voter IDs--ID laws are targeted 
toward--I think I said, generally speaking, as I understand 
them, targeted toward in-person issues.
    Senator Schumer. Right.
    Ms. Becker. And--but--
    Senator Schumer. Wait. So let me stop you there.
    Ms. Becker. But I cannot discuss the substance of this 
case, Senator.
    Senator Schumer. Yes.
    Ms. Becker. And I'm very--I'm very cautious here because I 
don't want to do anything that would adversely affect pending 
litigation in the Supreme Court.
    Senator Schumer. OK.
    I would just like the record to show that the only cases 
cited in this--in the--in the brief of the Justice Department 
were not voter ID, they were absentee ballot fraud. I'd just 
like the record to show that. And yet, we're doing something 
here about this.
    Now, just two more questions on this. Isn't it true that 
voter ID won't stop unscrupulous officials from tampering with 
election results? Voter ID has nothing to do with that, right?
    Ms. Becker. I'm sorry. Can you repeat the question?
    Senator Schumer. Yes. Voter ID law won't--isn't it true 
that a voter ID law won't stop unscrupulous officials from 
tampering with election results? One has nothing to do with the 
other.
    Ms. Becker. Generally--Senator, again, what we're looking 
for in the Civil Rights Division are not the voter fraud 
issues. You're asking a lot of substantive questions on a voter 
fraud issue. What we're looking for in the Civil Rights 
Division is whether or not a particular law will have a 
retrogressive effect or discriminatory purpose. Those are the 
statutes that we enforce.
    Senator Schumer. Let me--let me change. You're not--
    Ms. Becker. You're asking me policy questions about this.
    Senator Schumer. I'm asking you--
    Ms. Becker. I'm not going--
    Senator Schumer. These are not policy questions. These are 
factual questions that someone who's in the Department should 
know. There are certain laws aimed at certain types of fraud 
and other types of laws aimed at other type of fraud, and 
your--your brief cites one type of fraud to justify another 
type of law.
    But let me ask you this. I'm going to move to something 
else here. In 2002, the Justice Department launched a new 
ballot access and voting integrity initiative, correct?
    Ms. Becker. Yes.
    Senator Schumer. Since that initiative started, how many 
in-person voter fraud cases has DOJ investigated and 
prosecuted?
    Ms. Becker. Again, Senator, it's another component of the 
Justice Department that handles those cases.
    Senator Schumer. You know, wait a second. You signed this 
brief and you don't know? You're head of Civil Rights Division 
and you don't know the answer to that?
    Ms. Becker. I can certainly get those statistics for you, 
Senator.
    Senator Schumer. You can get me those in writing. In fact, 
I'm not going to--I'm going to ask the nomination not move 
forward until I get those answers in writing. And I'd also like 
to know how many in Indiana. How many nationally and how many 
in Indiana, because your brief, of course, applies to Indiana.
    And I just want to ask you this: did you consult any 
experts at the Justice Department or elsewhere about the 
prevalence of fraud in Indiana before deciding to file the 
brief?
    Ms. Becker. Senator, again, I cannot get into the 
deliberative process that we have.
    Senator Schumer. All right. I just want to say this. The 
nonpartisan Brennan Center did an analysis of 95 voter fraud 
cases brought by the Justice Department between 2002 and 2005 
and concluded that not one of them was a case of in-person 
fraud that could have been stopped by a photo ID.
    I'd like you to just take a look--I'm not asking you now. 
That wouldn't be right--at this Brennan Center report and get 
me--see if you disagree with that or if they're--it's 
fallacious in any way. And I would just say--and I'm going to 
just ask these rhetorical questions and conclude, and I really 
thank you, Mr. Chairman, for your indulgence of me here. I care 
about this a lot.
    It doesn't seem logical that you should know the magnitude 
of this supposed problem before signing your name to--name to a 
brief endorsing a flawed solution--at least in my judgment, a 
flawed solution. If you can't cite how many cases, you have no 
idea, and yet you signed a brief that says we have to have a 
major law change, that says something to me.
    Wouldn't it--and just, you can answer both of these. 
Wouldn't it call into question whether you should be leader of 
this Department if--a Department tasked with ensuring voter 
access, when you publicly support an Indiana law which seems to 
attack a phantom problem on the one hand, because we don't have 
many cases--I don't think any in Indiana--of in-person voter 
fraud, and at the same time would disenfranchise voters? How do 
you answer that?
    Ms. Becker. Senator, with respect, sir, we were not--what 
we try to do in every brief that we file in the court is to 
interpret the law. We--we do not try to change the law, we try 
and interpret the law. It's up to Congress, certainly, in its 
role to make the laws or to change the laws as they see fit. So 
what the Justice Department tried to do in this case, was just 
to interpret the law.
    And Senator, if you look at--we take each instance on a 
case-by-case basis and if you look at the cross-section of 
cases that we have filed, you will see that in the Supreme 
Court we've also filed an amicus brief in Riley v. Kennedy, 
where the Solicitor General, on behalf of the Civil Rights 
Division, defends a Section 5 objection that we made on behalf 
of African-American voters. We filed other amicus briefs on 
other non-voting issues in the civil rights context. For 
example, in Cracker Barrel, the CBOCs case where we filed an 
amicus brief in support of individuals who were bringing 
private civil rights lawsuits.
    So we take each case on a case-by-case basis, Senator, and 
if I am confirmed, I can assure you that we will continue to do 
so. I can appreciate that we disagree on this one particular 
case, but Senator, I would like the opportunity to be able to 
take this on a case-by-case basis. I share your concern with 
respect to voter ID laws, because I think we do need to look at 
them very carefully.
    I can tell you that what the Solicitor General, the Civil 
Rights Division, and the United States is trying to do in this 
case, was try to interpret the law. Senator, after the Supreme 
Court has rendered its decision, I hope to have the opportunity 
to--to discuss the substance of that in more detail.
    Senator Schumer. I respect what you have to say. I have a 
different view. I have a view that this administration--and we 
saw this under Alberto Gonzales's stewardship--uses the pretext 
of voter fraud, even though they can't prove it, to make it 
harder for poorer people to vote. You all know the quote. I 
don't know if it was mentioned earlier here before. One 
Republican official in Texas said, ``If we had a voter ID law 
it would reduce Democratic turnout by 3 percent.'' And who 
would that affect? Poor people, minorities, immigrants.
    Voting is a sacred right. It's equal. The poorest person 
with the least power has the same vote as the richest person 
with the most power. When you tamper with it for political 
purposes, I think it's nothing short of despicable. And I 
believe that the Civil Rights Division--not the rank and file, 
but the political appointees--has done that in the past and I 
think we have to make very sure that you won't do it. That's 
why I think we need more complete answers than just saying ``I 
can't answer this, I can't answer that''.
    But again, I greatly respect you and where you come from 
and what you've achieved. This is not a substantive or personal 
disagreement, but it's one that some of us feel very, very 
deeply here.
    Ms. Becker. Senator, thank--
    Senator Schumer. The last word.
    Ms. Becker. Senator, thank you. You know, as--coming from a 
family of immigrants and naturalized American citizens, I 
certainly have emphasized to my family members and to other 
naturalized citizens that I've spoken to down the street at the 
Federal courthouse the importance of the right to vote, because 
I think all of us really believe that voting is--is--is so 
important because it protects all the other rights that we 
have. And so, Senator, I do share your concern on that issue. 
You know, I am at a disadvantage because that is pending 
litigation, so I'm not able to talk about it. I wish I could be 
more responsive to your questions, but I do hope that I would 
have the opportunity to at a later date.
    Senator Schumer. Thank you.
    Senator Kennedy. Thank you very much.
    Senator Feingold?
    Senator Feingold. Thank you, Mr. Chairman. Welcome, Ms. 
Becker.
    I want to followup on Senator Kennedy's questions about 
hiring practices. As I understand it, and as the Boston Globe 
reported, there was a major change in the Division's hiring 
practices in 2002, giving political appointees a greater role 
in hiring decisions with little input from career staff. You've 
described a collaborative process involving both career 
employees and political appointees. Is this the same process 
that was implemented in 2002 or is it a change from what was 
done between 2002 when you arrived at the Division?
    Ms. Becker. Senator, I joined the Division in 2006. I'm not 
quite sure what the 2002 process was that you're referring to. 
I can tell you how I--how we've been doing it in the Civil 
Rights Division since I've been there over the last 2 years, 
and it's a team approach, Senator. There--there--there are 
multiple attorneys that are involved at different levels, you 
know, trial attorney, deputy chief, chief, Deputy Assistant 
Attorney General, all--all involved in the process.
    It's a collaborative approach. There are certainly more 
career attorneys that are involved in the process than 
political--political-appointed managers, but it's--it's one 
where I've always believed that--that all the managers and the 
chain of command have an appropriate role, so long as they do 
not take political affiliation into account for career hires.
    Senator Feingold. Well, and other than instructing your 
staff that political considerations should not play a role in 
hiring, you don't plan to make any changes in that process, is 
that right?
    Ms. Becker. Senator--Senator, not--not at this time. But, 
you know, if I am--if I become aware that there is a problem, 
if there's an issue, certainly I will be open to reconsidering 
it as--as things arise. But this process has worked very 
successfully over the last 2 years during my management there, 
and I believe it's--it's a process that everyone on the team 
has been happy with. And from a manager's standpoint, I--I do 
not see any need to change it at this time.
    Senator Feingold. All right. As Senator Kennedy touched on 
earlier, sections of the Civil Rights Division that are charged 
with enforcing anti-discrimination statutes have brought fewer 
cases on behalf of minorities and women, and more cases on 
behalf of whites and men under this administration. Do you 
agree that the top priority of the Civil Rights Division should 
be protecting the rights of minorities, women, and other groups 
that have been an historic target of discrimination?
    Ms. Becker. Senator, I believe the Civil Rights Division 
has been, and will continue if I'm confirmed, hopefully, to--to 
bring cases on behalf of all Americans. Senator, I can tell 
you, from my experiencing in overseeing the Criminal Section, 
for example, that--that we bring many cases against many, many 
vulnerable victims. On the human trafficking front, for 
example, we've been able to help many women, women of color, 
over 1,000 women from over 80 countries, including U.S. citizen 
victims who have been horribly, horribly victimized through 
human trafficking. So, certainly, Senator, I--I believe it's 
important for us to vigorously enforce all of our statutes 
and--and go where the need is greatest.
    Senator Feingold. You know, I think we all agree that 
discrimination in all forms is intolerable, but the fact is, 
the resources of the Civil Rights Division are finite and every 
enforcement action represents a choice of how to allocate those 
resources. So my question is not whether or not a lot of cases 
have been brought with regard to the things you just mentioned, 
but shouldn't the Civil Rights Division prioritize the rights 
of those who suffer the most discrimination?
    Ms. Becker. Senator, it shouldn't have--I believe--we have, 
for example, in the post-9/11 era where there was a great 
concern about whether individuals who are Arab, Muslim, Sikh, 
or South Asian were being victimized through back--9/11 
backlash. There's a--even before I came to the Civil Rights 
Division there was a 
9/11 backlash initiative, and since then we've opened over 800 
investigations to ensure that what happened to Asian-Americans 
in the World War II era was not repeated in the post-9/11 era, 
Senator.
    Senator Feingold. Well, I'm certainly hearing that these 
areas are being addressed. But what I'm getting at, and I'll 
let it be for now, is the mix. What are the priorities? Your 
answers were not clear on what the priorities are.
    I'm very concerned about the pattern of the Civil Rights 
Division coming into court and asking to set aside settlement 
agreements designed to benefit minorities and women that were 
reached under the previous administration.
    In these cases, the Civil Rights Division has become a de 
facto advocate for the very party that was accused of violating 
civil rights laws. Do you believe that attempting to set aside 
agreements intended to enforce compliance with civil rights law 
is an appropriate use of the Civil Rights Division's resources?
    Ms. Becker. Senator, I believe that any change in the 
Department's position should be exceptional. I am not aware, in 
the--in the two years that I've been overseeing the various 
sections within the Division, anywhere from 300 to 700 
employees, that we've had such a change in policy. But I do 
think that that's an exceptional situation. If--if it, in fact, 
occurred, it was before my time.
    Senator Feingold. Well, I'd be interested in following that 
issue and how often it is done, and whether it's the right 
thing to do.
    You presented testimony before the United Nations Committee 
on the Elimination of Racial Discrimination, or CERD, which has 
recently issued its concluding observations on the United 
States' implementation of the International Convention on the 
Elimination of All Forms of Racial Discrimination. The CERD 
report noted a high level of concern, as you basically just 
alluded to, regarding the increase in racial profiling against 
Arabs, Muslims, and South Asians in the wake of the 9/11 
attack.
    Expressing its concerns, the report references the Civil 
Rights Division's adoption of the revised publication entitled, 
``Guidance Regarding the Use of Race by Federal Law Enforcement 
Agencies''. As head of the Civil Rights Division, will you 
commit to reviewing the policies in that manual to ensure that 
the administration is taking every possible step to end racial 
profiling?
    Ms. Becker. Senator, I know this is an interest that--
that--that you've had for some time with respect to racial 
profiling, and I've appreciated your leadership on this. I 
agree with the President that racial profiling is wrong.
    I first learned about the Civil Rights Division's 
guidelines on racial profiling while I was working here on this 
very Committee. And Senator, to be clear, even though it is 
labeled ``guidance'', it is binding on all Federal law 
enforcement officers here in the United States. There is 
extensive training that is going on in the Federal law 
enforcement arena. For example, at FLETC, the Federal Law 
Enforcement Training Center, not only do they receive training 
in racial profiling, they get the guidelines. They're tested on 
the guidelines. So it is something that we continue to take 
seriously in the Civil Rights Division.
    Senator Feingold. So you'll commit to reviewing policies in 
that manual to ensure that the administration is taking every 
possible step to end racial profiling, right?
    Ms. Becker. I'd be happy to work with you on racial 
profiling issues with respect to the guidance, if you have any 
concerns with respect to that.
    Senator Feingold. Why won't you just commit to reviewing 
the policies in that manual?
    Ms. Becker. I have reviewed them, Senator. I'm familiar 
with them. But I'm not quite sure what you--I've reviewed them 
while I've been at the Civil Rights Division, Senator. But I 
think--
    Senator Feingold. I'm asking you again, as the head of the 
Civil Rights Division, if you are confirmed, will you do that?
    Ms. Becker. Senator, I will review it, and if there is 
appropriate action for me to take, I will take it.
    Senator Feingold. All right.
    The CERD report also encouraged the United States to adopt 
Federal legislation such as the End Racial Profiling Act which 
I've introduced in several Congresses, including this one. And 
you obviously are aware, by working there. Are you familiar 
with that--with that bill?
    Ms. Becker. Yes, I am, sir.
    Senator Feingold. And what is your view on the bill? Will 
you commit to working on it with the Congress?
    Ms. Becker. I'm not sure I could--I do not--I do not 
believe the Department has taken a position on it with respect 
to that bill, Senator.
    Senator Feingold. Do you have a view on the bill? You're 
familiar with it.
    Ms. Becker. I'm generally familiar with it, Senator. But as 
you know, the Department speaks with one voice, so I'd go back 
to the Department and I'd see whether or not the Department has 
taken a position on it, and as a representative of the 
Department that would be my position, sir.
    Senator Feingold. During his confirmation hearings, when 
asked about the mission of the Voting Rights section, Attorney 
General Mukasey stated, ``I believe that the Civil Rights 
Division must follow its traditional of focusing on the most 
prevalent and significant voting problems.''
    Ms. Becker, in your view, which is the most prevalent and 
serious threat to American elections today, voter fraud or 
voter suppression?
    Ms. Becker. Senator, our focus in the Civil Rights Division 
has been--in the Federal laws that we have, which primarily 
target voter suppression. To the extent that there is voter 
fraud, there are other components of the Justice Department 
that are focused primarily with respect to that issue, sir.
    Senator Feingold. Let me switch to one other thing. The 
recent CERD articulated a concern about, as I indicated, the 
disparate impact of felon disenfranchisement laws on racial, 
ethnic, and national minorities, in particular, African-
Americans. As I take it you're aware, more than 5.4 million 
Americans are disenfranchised by these laws which have an 
explicitly racist history and a markedly disproportionate 
impact. In some States, one in four African-American adults are 
disenfranchised because of the Jim Crow--these Jim Crow 
provisions. I will soon be introducing legislation to restore 
the right to vote to people on probation parole who have served 
their sentences.
    Ms. Becker, I would hope that, as the head of the section 
of the Department of Justice, that that should be at the 
forefront of protecting citizens from racial discrimination, 
protecting voting rights. You would agree that these felon 
disenfranchisement laws have no place in America today. Will 
you work with me to get the administration's support for 
legislation to adopt this unjust practice?
    Ms. Becker. Senator, I'd be happy to work with you on this, 
or any other, legislation.
    Senator Feingold. Will you support it?
    Ms. Becker. Senator, I--I haven't seen the bill. I can tell 
you that, generally, felon disenfranchisement laws, as I 
understand them, have been determined on a State-by-State 
basis. To the extent that they would come before the Civil 
Rights Division, I think it may be in a pre-clearance process, 
maybe one where it may be something that we'd have an 
opportunity to review some of these laws.
    I can tell you generally that any practice that--that could 
potentially implicate one of these statutes that we enforce in 
the Civil Rights Division is something that is of concern to 
us, particularly when it's involving suppressing the minority 
vote. So, Senator, I--I would be happy to work with you on this 
bill. I'm--I'm not familiar with the--the contours of the bill.
    Senator Feingold. I want to go back to the voting rights 
issue again one more time. Again, as we talked about with 
regard to the priorities of the Division in general, the 
resources of the Division are finite and the sitting Attorney 
General stated, ``those resources should be focused on the most 
prevalent and significant problems.''
    In my view, all available nonpartisan evidence clearly 
shows while there are very few cases of voter fraud, our 
elections continue to be undermined by organized efforts to 
disenfranchise voters. Do you disagree with that assessment?
    Ms. Becker. Senator, generally the voter fraud provisions 
are handled by a different component of the Justice Department, 
so I'm not in a position to opine on them, sir.
    Senator Feingold. Well, I take it this just proves it. In 
the Senate, if you wait long enough, you become the Chairman. 
Is that what's happening here?
    I thank the witness very much and the hearing is adjourned.
    [Whereupon, at 4:15 p.m. the Committee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T2266.040

[GRAPHIC] [TIFF OMITTED] T2266.041

[GRAPHIC] [TIFF OMITTED] T2266.042

[GRAPHIC] [TIFF OMITTED] T2266.043

[GRAPHIC] [TIFF OMITTED] T2266.044

[GRAPHIC] [TIFF OMITTED] T2266.045

[GRAPHIC] [TIFF OMITTED] T2266.046

[GRAPHIC] [TIFF OMITTED] T2266.047

[GRAPHIC] [TIFF OMITTED] T2266.048

[GRAPHIC] [TIFF OMITTED] T2266.049

[GRAPHIC] [TIFF OMITTED] T2266.050

[GRAPHIC] [TIFF OMITTED] T2266.051

[GRAPHIC] [TIFF OMITTED] T2266.052

[GRAPHIC] [TIFF OMITTED] T2266.053

[GRAPHIC] [TIFF OMITTED] T2266.054

[GRAPHIC] [TIFF OMITTED] T2266.055

[GRAPHIC] [TIFF OMITTED] T2266.056

[GRAPHIC] [TIFF OMITTED] T2266.057

[GRAPHIC] [TIFF OMITTED] T2266.058

[GRAPHIC] [TIFF OMITTED] T2266.059

[GRAPHIC] [TIFF OMITTED] T2266.060

[GRAPHIC] [TIFF OMITTED] T2266.061

[GRAPHIC] [TIFF OMITTED] T2266.062

[GRAPHIC] [TIFF OMITTED] T2266.063

[GRAPHIC] [TIFF OMITTED] T2266.064

[GRAPHIC] [TIFF OMITTED] T2266.065

[GRAPHIC] [TIFF OMITTED] T2266.066

[GRAPHIC] [TIFF OMITTED] T2266.067

[GRAPHIC] [TIFF OMITTED] T2266.068

[GRAPHIC] [TIFF OMITTED] T2266.069

[GRAPHIC] [TIFF OMITTED] T2266.070

[GRAPHIC] [TIFF OMITTED] T2266.071

[GRAPHIC] [TIFF OMITTED] T2266.072

[GRAPHIC] [TIFF OMITTED] T2266.073

[GRAPHIC] [TIFF OMITTED] T2266.074

[GRAPHIC] [TIFF OMITTED] T2266.075

[GRAPHIC] [TIFF OMITTED] T2266.076

[GRAPHIC] [TIFF OMITTED] T2266.077

[GRAPHIC] [TIFF OMITTED] T2266.078

[GRAPHIC] [TIFF OMITTED] T2266.079

[GRAPHIC] [TIFF OMITTED] T2266.080

[GRAPHIC] [TIFF OMITTED] T2266.081

[GRAPHIC] [TIFF OMITTED] T2266.082

[GRAPHIC] [TIFF OMITTED] T2266.083

[GRAPHIC] [TIFF OMITTED] T2266.084

[GRAPHIC] [TIFF OMITTED] T2266.085

[GRAPHIC] [TIFF OMITTED] T2266.086

[GRAPHIC] [TIFF OMITTED] T2266.087

[GRAPHIC] [TIFF OMITTED] T2266.088

[GRAPHIC] [TIFF OMITTED] T2266.089

[GRAPHIC] [TIFF OMITTED] T2266.090

[GRAPHIC] [TIFF OMITTED] T2266.091

[GRAPHIC] [TIFF OMITTED] T2266.092

[GRAPHIC] [TIFF OMITTED] T2266.093

[GRAPHIC] [TIFF OMITTED] T2266.094

[GRAPHIC] [TIFF OMITTED] T2266.095

[GRAPHIC] [TIFF OMITTED] T2266.096

[GRAPHIC] [TIFF OMITTED] T2266.097

[GRAPHIC] [TIFF OMITTED] T2266.098

[GRAPHIC] [TIFF OMITTED] T2266.099

[GRAPHIC] [TIFF OMITTED] T2266.100

[GRAPHIC] [TIFF OMITTED] T2266.101

[GRAPHIC] [TIFF OMITTED] T2266.102

[GRAPHIC] [TIFF OMITTED] T2266.103

[GRAPHIC] [TIFF OMITTED] T2266.104

[GRAPHIC] [TIFF OMITTED] T2266.105

[GRAPHIC] [TIFF OMITTED] T2266.106

[GRAPHIC] [TIFF OMITTED] T2266.107

[GRAPHIC] [TIFF OMITTED] T2266.108

[GRAPHIC] [TIFF OMITTED] T2266.109

[GRAPHIC] [TIFF OMITTED] T2266.110

[GRAPHIC] [TIFF OMITTED] T2266.111

[GRAPHIC] [TIFF OMITTED] T2266.112

[GRAPHIC] [TIFF OMITTED] T2266.113

[GRAPHIC] [TIFF OMITTED] T2266.114

[GRAPHIC] [TIFF OMITTED] T2266.115

[GRAPHIC] [TIFF OMITTED] T2266.116

[GRAPHIC] [TIFF OMITTED] T2266.117

[GRAPHIC] [TIFF OMITTED] T2266.118

[GRAPHIC] [TIFF OMITTED] T2266.119

[GRAPHIC] [TIFF OMITTED] T2266.120

[GRAPHIC] [TIFF OMITTED] T2266.121

[GRAPHIC] [TIFF OMITTED] T2266.122

[GRAPHIC] [TIFF OMITTED] T2266.123

[GRAPHIC] [TIFF OMITTED] T2266.124

[GRAPHIC] [TIFF OMITTED] T2266.125

[GRAPHIC] [TIFF OMITTED] T2266.126

[GRAPHIC] [TIFF OMITTED] T2266.127

[GRAPHIC] [TIFF OMITTED] T2266.128

[GRAPHIC] [TIFF OMITTED] T2266.129

[GRAPHIC] [TIFF OMITTED] T2266.130

[GRAPHIC] [TIFF OMITTED] T2266.131

[GRAPHIC] [TIFF OMITTED] T2266.132

[GRAPHIC] [TIFF OMITTED] T2266.133

[GRAPHIC] [TIFF OMITTED] T2266.134

[GRAPHIC] [TIFF OMITTED] T2266.135

[GRAPHIC] [TIFF OMITTED] T2266.136

[GRAPHIC] [TIFF OMITTED] T2266.137

[GRAPHIC] [TIFF OMITTED] T2266.138

[GRAPHIC] [TIFF OMITTED] T2266.139

[GRAPHIC] [TIFF OMITTED] T2266.140

[GRAPHIC] [TIFF OMITTED] T2266.145

[GRAPHIC] [TIFF OMITTED] T2266.146

[GRAPHIC] [TIFF OMITTED] T2266.147

[GRAPHIC] [TIFF OMITTED] T2266.148

[GRAPHIC] [TIFF OMITTED] T2266.149

[GRAPHIC] [TIFF OMITTED] T2266.150

[GRAPHIC] [TIFF OMITTED] T2266.151

[GRAPHIC] [TIFF OMITTED] T2266.152

[GRAPHIC] [TIFF OMITTED] T2266.153

[GRAPHIC] [TIFF OMITTED] T2266.154

[GRAPHIC] [TIFF OMITTED] T2266.155

[GRAPHIC] [TIFF OMITTED] T2266.156

[GRAPHIC] [TIFF OMITTED] T2266.157

[GRAPHIC] [TIFF OMITTED] T2266.158

[GRAPHIC] [TIFF OMITTED] T2266.159

[GRAPHIC] [TIFF OMITTED] T2266.160

[GRAPHIC] [TIFF OMITTED] T2266.161

[GRAPHIC] [TIFF OMITTED] T2266.162

[GRAPHIC] [TIFF OMITTED] T2266.163

[GRAPHIC] [TIFF OMITTED] T2266.164

[GRAPHIC] [TIFF OMITTED] T2266.165

[GRAPHIC] [TIFF OMITTED] T2266.166

[GRAPHIC] [TIFF OMITTED] T2266.167

[GRAPHIC] [TIFF OMITTED] T2266.168

[GRAPHIC] [TIFF OMITTED] T2266.141

[GRAPHIC] [TIFF OMITTED] T2266.142

[GRAPHIC] [TIFF OMITTED] T2266.143

[GRAPHIC] [TIFF OMITTED] T2266.144

                                 <all>

</pre></body></html>
